TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Processes to Resolve Undelivered and
                    Expired Refunds Are Generally Effective



                                         August 31, 2006

                              Reference Number: 2006-40-133




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 31, 2006


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       (for) Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Processes to Resolve Undelivered and Expired
                             Refunds Are Generally Effective (Audit # 200540030)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) is resolving undelivered and expired refund check conditions efficiently and effectively.
 We evaluated the current resolution processes and reviewed samples of undelivered and expired
 refund checks to determine whether the processes might be improved.

 Synopsis
 The IRS issues over 100 million refunds annually to taxpayers. While taxpayers cash most
 refunds, hundreds of thousands are returned to the IRS as undeliverable or expire without ever
 being cashed. The IRS offers information via telephone, web site, and publications to help
 taxpayers claim undelivered or expired refunds. The IRS also has systemic processes to reissue
 refunds automatically when it receives new addresses for taxpayers who are owed refunds.
 Nevertheless, thousands of refunds go unclaimed each year.
 The IRS’ processes for resolving undelivered and expired refunds are generally effective. The
 IRS reissues refunds if the original refunds either were returned undeliverable or credited back to
 taxpayers’ accounts when the original refunds were not cashed within a specific period. The IRS
 eliminated much unproductive research when it recently revised its procedures to discontinue
 research of each Undelivered Refund Check Notice. We estimate that, of the 207,750 Tax Year
 2003 undelivered refunds still outstanding at the end of December 2004, 93 percent were
 resolved by the end of December 2005. Analysis of a statistical sample of 400 Tax Year 2001
 cases unresolved in 2004 showed many of these older cases were resolved within another year.
 The IRS’ efforts to get taxpayers their refunds were reasonably successful; however, the IRS
                                 Processes to Resolve Undelivered
                            and Expired Refunds Are Generally Effective



could enhance its processes to improve the timeliness and ease of getting refunds reissued to
taxpayers or their estates.
The IRS could improve the Undelivered Refund Check Notice sent to taxpayers explaining how
to obtain refunds after checks have been returned
undeliverable. Our analysis of a statistical sample     IRS processes for resolving undelivered
of 396 Tax Year 2003 undelivered refunds showed             and expired refunds are generally
that processing time could be reduced by about a        effective; however, improvements to the
                                                            processes could reduce taxpayer
week if the IRS directed taxpayers to make contact
                                                         burden and improve customer service.
by telephone rather than by written
correspondence. Also, although the IRS has plans
to address this issue, the current Undelivered Refund Check Notice does not direct taxpayers to
the IRS Internet web site, IRS.gov, as another available alternative. Additionally, a higher
proportion of Hispanic surname undelivered refund cases were not resolved, indicating that some
of these taxpayers may not respond because they are having difficulty understanding the
English-only Undelivered Refund Check Notice.
Processing of undelivered or expired refunds of deceased taxpayers could be improved. Our
review of a statistical sample of 400 older cases from Tax Year 2001 indicated a higher
proportion of deceased taxpayer cases in the unresolved cases than in the resolved cases.
Currently, undelivered and expired refunds for deceased taxpayers are treated the same as other
undelivered and expired refunds. A subsequent tax return filing was the most frequent means of
obtaining contact information for the older cases. However, the IRS normally does not receive
subsequent returns for deceased taxpayers. Depending on the situation, an executor may not
know an undelivered or expired refund is owed to the deceased taxpayer.

Recommendations
The Commissioner, Wage and Investment Division, should revise the Undelivered Refund
Check Notice to emphasize response by telephone and Internet. Additionally, the Undelivered
Refund Check Notice should include sufficient information in Spanish to explain its purpose and
to direct taxpayers to call a telephone number where they can receive Spanish-language
assistance. The Commissioner, Wage and Investment Division, also should ensure deceased
taxpayer accounts with significant credit balances are identified and reviewed as soon as possible
after the refund check has been returned undeliverable and prior to an expired refund being
reissued.

Response
The IRS partially agreed with the first recommendation and agreed with the second
recommendation. The Wage and Investment Division will update the Undelivered Refund

                                                                                                  2
                                Processes to Resolve Undelivered
                           and Expired Refunds Are Generally Effective



Check Notice to publicize the different options available for taxpayers to update their address
with the IRS and to advise taxpayers in Spanish (after the toll-free telephone number) that
assistance is available in Spanish by calling the toll-free number. In addition, the Wage and
Investment Division will do further research in the area of deceased taxpayer accounts to
determine if procedural changes are warranted. IRS management did not agree to eliminate the
bottom portion of the Undelivered Refund Check Notice or to discontinue sending the taxpayer a
return envelope. The IRS does not believe eliminating these items would provide good customer
service. Management’s complete response to the draft report is included as Appendix VII.

Office of Audit Comment
While we believe eliminating these items would provide faster, more efficient customer service
with lower mailing costs, we accept the IRS’ decision to continue to provide taxpayers with the
return mail option.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




                                                                                                  3
                                            Processes to Resolve Undelivered
                                       and Expired Refunds Are Generally Effective




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Processes Are in Place to Address Undelivered and Expired
          Refunds .........................................................................................................Page 2
          Revising the Undelivered Refund Check Notice Would Make
          It More Efficient ...........................................................................................Page 4
                    Recommendation 1:..........................................................Page 7

          Processing of Undelivered or Expired Refunds of Deceased
          Taxpayers Could Be Improved .....................................................................Page 8
                    Recommendation 2:..........................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Outcome Measure ................................................................Page 15
          Appendix V – Undelivered and Expired Refunds Process ...........................Page 16
          Appendix VI – Undelivered Refund Check Notice ......................................Page 17
          Appendix VII – Management’s Response to the Draft Report.....................Page 18
            Processes to Resolve Undelivered
       and Expired Refunds Are Generally Effective




              Abbreviations

FMS       Financial Management Service
IDRS      Integrated Data Retrieval System
IRS       Internal Revenue Service
USPS      United States Postal Service
                                       Processes to Resolve Undelivered
                                  and Expired Refunds Are Generally Effective




                                              Background

The Internal Revenue Service (IRS) issues over 100 million refunds annually to taxpayers.
While taxpayers cash most refund checks, hundreds of thousands are returned to the IRS as
undeliverable or expire without ever being cashed. The IRS offers information via telephone,
web site, and publications to help taxpayers claim undelivered or expired refunds. The IRS also
has systemic processes to reissue refunds automatically when it receives new addresses for
taxpayers who are owed refunds. The United States Postal Service (USPS) periodically sends an
electronic listing with new addresses to the IRS. The IRS uses this information to reissue refund
checks to taxpayers. In addition, the IRS reissues refunds systemically when a tax return with a
new address is received and posts to the taxpayer’s account. Nevertheless, thousands of refunds
go unclaimed each year.
The IRS coordinates with the Department of the Treasury Financial Management Service (FMS)
to send refunds to taxpayers. The IRS is responsible for providing the FMS with all the
information it needs to send refund checks. The FMS is responsible for mailing the refund
checks or processing direct deposits to taxpayer bank accounts based on IRS directions.
For a number of reasons, some of these checks cannot be delivered by the USPS and are returned
as undeliverable. If the USPS cannot deliver a refund check to the taxpayer’s address, it will
return the check to the FMS. The FMS cancels undelivered refund checks weekly and transmits
this information to the IRS. The FMS also transmits to the IRS information for refunds that have
not been cashed within 12 months of issuance and are considered expired. After receiving
undelivered and expired refund information from the FMS, the IRS credits the refund amounts
back to the taxpayers’ accounts. The IRS subsequently attempts to send these refunds back to
taxpayers.
This review was performed at the Customer Account Services function of the Wage and
Investment Division Headquarters in Atlanta, Georgia, and the IRS Submission Processing Site
at the Fresno Campus1 in Fresno, California, during the period September 2005 through
March 2006. Data from the IRS Individual Master File2 were used to review information
nationally. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




1
  The campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
2
  The Individual Master File is the IRS database that maintains transactions or records of individual tax accounts.
                                                                                                              Page 1
                                    Processes to Resolve Undelivered
                               and Expired Refunds Are Generally Effective




                                    Results of Review

The IRS’ processes for resolving undelivered and expired refunds are generally effective. These
processes provide most taxpayers with another refund after the original refund either was
returned undeliverable or credited back to the taxpayer’s account when the original refund was
not cashed within a specific period. However, while generally effective, the processes could be
enhanced to provide faster service with fewer resources.

Processes Are in Place to Address Undelivered and Expired Refunds
When a refund check is returned undeliverable, the IRS will issue a new check immediately if it
received new address information after the initial refund check was issued. If no updated address
information was received, an Undelivered Refund Check Notice (Notice) is sent to the same
address. The Notice informs the taxpayer that a refund check was returned undelivered and
requests a correct address. The taxpayer is asked to complete a form at the bottom of the Notice
and return it to the IRS in the enclosed envelope provided. The Notice also has a telephone
number for taxpayer assistance.
If the Notice is returned undeliverable, no additional actions are taken until the taxpayer contacts
the IRS or files a return with an updated address or the USPS provides an updated address. Prior
to Fiscal Year 2006, employees researched all Notices that were returned as undeliverable to try
to locate better address information. The IRS eliminated much unproductive research when it
recently revised its procedures to discontinue research of each Undelivered Refund Check
Notice. A refund is reissued systemically (i.e., without further review of the case) when the
address on a taxpayer account is updated by USPS information or by the taxpayer filing a
subsequent income tax return. However, the primary source of systemic changes is subsequently
filed income tax returns with updated addresses.
Sometimes the USPS returns the Notice to the IRS with an expired updated address label on the
envelope. When this occurs, employees will send a letter to the expired address requesting the
taxpayer to verify that it is a current address. If the taxpayer responds, the IRS will reissue the
refund.
Procedures for resolving expired refunds are similar to undelivered refunds but vary depending
on the amount of the refund. With limited exceptions, the IRS reissues lower dollar refunds
along with a notice explaining the reason for the reissued refund.3 For higher dollar refunds, the
IRS issues a notice informing the taxpayer that the check has expired and will not be reissued

3
  A Computer Paragraph 32 Notice, New Refund Check – Old Check Not Cashed, is sent when the refund is
reissued.
                                                                                                        Page 2
                                    Processes to Resolve Undelivered
                               and Expired Refunds Are Generally Effective



until the taxpayer responds.4 No special action is taken for refunds under $10. The processing of
undelivered and expired refunds is illustrated in Appendix V.
The volumes of notices sent for undelivered and expired refunds have fluctuated in recent years,
as shown in Figure 1. This is due primarily to additional individual income tax refunds related to
the Economic Growth and Tax Relief Reconciliation Act of 20015 and the Jobs and Growth Tax
Relief Reconciliation Act of 2003.6 Sending millions of additional checks caused additional
undelivered and expired checks. Another factor is the increased use of electronic filing and
direct deposit. Errors are reduced with electronic transmissions as opposed to manual keying of
data by the IRS. Additionally, direct deposits generally bypass the paper check process unless
there is a transcription error in the direct deposit information. Electronic filing and direct
deposits result in more accurate and faster processing of refunds.
    Figure 1: Volumes of Refunds Issued and Undelivered and Expired Notices
                  Sent by the IRS During Fiscal Years 2000–2005

                                                        Undelivered                 Expired
         Fiscal Year          Refunds Issued           Refund Notices            Refund Notices

             2000                92,178,136                 306,444                  191,298
             2001               180,348,526                 641,950                  195,881
             2002               107,296,137                 532,456                  188,165
             2003               126,428,137                 479,176                  249,639
             2004               106,183,729                 284,596                  252,556
             2005               106,274,023                 293,253                  229,190
      Source: IRS Data Books 2000–2005 for refunds sent and IRS Gatekeeper web site notice volumes for
      Computer Paragraph 31, 32, and 32A Notices.

Most undelivered and expired refunds are reissued successfully
The IRS’ efforts to resolve undelivered and expired refunds appear to be reasonably successful.
To obtain information on undelivered refund characteristics, we selected two samples—one from
Tax Year 2003 to examine the more recent cases and one from Tax Year 2001 to examine the
older cases. For our Tax Year 2003 undelivered refund sample, we took a statistical sample of



4
  A Computer Paragraph 32A Notice, New Refund Check – Old Check Not Cashed, is sent to inform the taxpayer he
or she must contact the IRS to receive the refund.
5
  Pub. L. No. 107-16, 115 Stat. 38 (2001).
6
  Pub. L. No. 108-27, 117 Stat. 752 (2003).
                                                                                                         Page 3
                                       Processes to Resolve Undelivered
                                  and Expired Refunds Are Generally Effective



396 cases from the 207,750 Tax Year 20037 refunds that were undelivered as of the end of
Calendar Year 2004. As of the end of Calendar Year 2005, approximately 93 percent of our
sample cases had been resolved,8 and 7 percent were still unresolved.
Undelivered refunds and expired check refunds that have not been reissued for other reasons will
automatically be reissued when a subsequent tax return posts to the taxpayer’s account or when
the IRS receives a new taxpayer address from the USPS. If the taxpayer does not file a
subsequent return and no new address is obtained, after approximately 3 years of inactivity, the
refund amount will be moved automatically from the taxpayer’s account into the IRS Excess
Collections account. However, subsequent activity on the taxpayer’s account can reverse the
transaction and restore the credit to the taxpayer’s account.
We also determined the IRS continues to resolve older undelivered and expired refund cases.
The IRS issued approximately 191.4 million9 individual refunds related to Tax Year 2001. Our
analysis indicated approximately 634,000 refunds were undelivered or expired. About 39,000
were still unresolved, with a credit balance of at least $10010 as of the end of December 2004.
Our statistical sample of 400 of the approximately 39,000 unresolved Tax Year 2001 refunds
showed that many of these cases were resolved within another year. These older sample cases
were resolved most often by a subsequent income tax return with new address information
posting to the taxpayer’s account. Other actions that resolved cases included taxpayers
contacting the IRS to inquire about a refund and address updates from the USPS. Most of the
cases that remained unresolved had not had a return filed on the account since Tax Year 2001.
For the most part, the IRS is making a reasonable effort to provide taxpayers with refunds due
them. However, the IRS could enhance its processes to improve timeliness and efficiency.

Revising the Undelivered Refund Check Notice Would Make It More
Efficient
The IRS should consider more efficient and effective means of processing change of address
information to minimize costs and ensure refund checks are reissued to taxpayers as quickly as
possible. The instructions in the Undelivered Refund Check Notice do not promote the most
advantageous methods. Consequently, in many instances, the processing time for change of
address information is extended or taxpayers do not respond.


7
  A “tax year” refers to that year’s tax return (e.g., the Tax Year 2003 return would normally be filed in 2004 by the
filing cutoff date of approximately April 15).
8
  We considered a case “resolved” when a refund was reissued, even though in some cases the refund might
subsequently be returned as undeliverable or expired again.
9
  The 191.4 million includes 107.3 million individual income tax return refunds sent in Fiscal Year 2002 plus
84.1 million advance individual income tax refunds that were mailed in 2001.
10
   We selected cases with a credit balance of at least $100 to include only cases with a more significant balance for
audit test purposes.
                                                                                                               Page 4
                                      Processes to Resolve Undelivered
                                 and Expired Refunds Are Generally Effective



In Fiscal Year 2003, the IRS mailed out approximately 479,000 Notices to taxpayers. Because
the Notices are sent out after the USPS has already returned refunds to the IRS, many Notices
also are returned undeliverable. However, some of the Notices do reach taxpayers. We could
not estimate with reasonable certainty how many taxpayer change-of-address responses are
attributable to the mailing of the Notices, but it appears sufficient benefit is derived from the
process to make it worthwhile. Nonetheless, we have the following concerns with the current
Undelivered Refund Check Notice.
•    It instructs taxpayers to complete and mail in an attached change of address form, rather than
     to use toll-free telephone or Internet options, to inform the IRS of address changes.
•    It does not provide Spanish-language instructions.

Change of address instructions are not advantageous to the IRS
To request that an undeliverable refund be reissued, taxpayers may contact the IRS by telephone,
by mail, or via the Internet. The Notice instructs taxpayers to complete an attached change of
address form and mail it to the IRS using the enclosed envelope (see Appendix VI for a copy of
the Notice). The Notice also provides a toll-free telephone number for assistance. Although a
significant number of taxpayers submit the information by mail, providing it by telephone is the
most widely used method. We analyzed a random sample of 396 returned refunds for Tax
Year 2003 and determined that 59 percent of the cases were handled by telephone. Figure 2
shows some of the results of our analysis.
                    Figure 2: Processing Times for Undelivered Refunds

                                             Number            Percentage     Number of
          Cases Handled by:                  of Cases           of Cases    Weeks to Process

     Telephone                                 232                  59%           6.6
     Subsequent Filing or USPS
                                                82                  21%           32.1
     Address Change
     Mail                                       43                  11%           8.0
     Not Determined                             10                  2%            19.6
     Unresolved Cases                           29                  7%             -
      Total                                    396                 100%           12.8
    Source: Treasury Inspector General for Tax Administration analysis.

Processing by mail averaged about 8 weeks from the time the Notice was sent out until the
refund was reissued, while processing by telephone averaged 6.6 weeks. The average time to
handle cases systemically (which included address corrections made by the filing of a subsequent

                                                                                            Page 5
                                 Processes to Resolve Undelivered
                            and Expired Refunds Are Generally Effective



tax return or the USPS) was 32.1 weeks. The overall average processing time was 12.8 weeks.
For the cases described as “Not Determined,” we were unable to determine the exact source for
the case resolution.
Not only is the telephone option faster, there are no return mailing costs involved. Using IRS
information, the estimate of this cost (enclosed return envelope) was $223,636 over the last
5 years and will be about $148,000 in the next 5 years. We do not have information on how
labor or telephone costs would be affected by redirecting taxpayers from use of the mail to use of
the telephone or Internet. However, with more timely resolution of undelivered refunds,
taxpayers would receive the benefit of faster customer service.
Although response by mail is less efficient for both the taxpayer and the IRS, a segment of
taxpayers may want to use this method. To accommodate those who cannot access the Internet
or make a telephone call, the IRS could provide a mailing address on the Notice and advise the
taxpayer to respond with a new address on the copy of the Notice. Use of return envelopes
should be eliminated because there is no benefit extended to the majority of recipients who
respond by other means, thereby saving the IRS the cost of the return envelopes.
The IRS maintains a link on its web site called “Where’s My Refund?” According to the IRS,
the link offers taxpayers refund information as well as an Internet method of submitting a change
of address. If the refund status indicates the refund check was undeliverable, the taxpayer is
prompted to respond to authentication questions. After successful authentication, the taxpayer’s
account will be updated automatically with the new or corrected address and the refund will be
reissued systemically. Our sample analysis did not include Internet activity because the
application was implemented in mid-2005, after the majority of Tax Year 2003 undelivered
refunds had already been handled. However, experience with tax filings shows that electronic
submissions have grown significantly in the past few years and Internet change of address
submissions are likely to increase as well.
The IRS has acknowledged that the Notice needs revision and is in the process of making a
change to promote the use of the Internet option for submitting changes of address. However,
the Notice still instructs the taxpayer to complete the address change information at the bottom
of the Notice and mail it to the IRS. The Notice does not clearly present the preferred method of
calling the IRS to provide address change information. We estimate that 22,645 taxpayers with
Tax Year 2003 refunds could have been served more quickly if they had used the telephone
method of contacting the IRS instead of corresponding by mail. Based on Tax Year 2003 results,
over a 5-year period as many as 113,225 taxpayers could be served more quickly (see
Appendix IV).

Spanish translation on the Notice could improve responses
A significant number of taxpayers may have difficulty comprehending the Notice if their
English-language skills are not fluent. Although we could not determine how many taxpayers
are affected, we attempted to get a better understanding by analyzing our sample of 396 Tax
                                                                                           Page 6
                                 Processes to Resolve Undelivered
                            and Expired Refunds Are Generally Effective



Year 2003 undelivered refunds for the presence of Hispanic surnames. We used a Bureau of the
Census list of Hispanic surnames and Internet searches to help determine whether a name was
Hispanic. Ninety-one (23 percent) of the 396 undelivered refunds were for taxpayers with
Hispanic surnames. This is somewhat more than the national percentage of Hispanic surnames
in the United States population. Between 2000 and 2004, the Bureau of the Census reported that
between 12.5 percent and 14.2 percent of the United States population was Hispanic.
Because a higher proportion of Hispanic surname cases are not resolved, it may be that some of
these taxpayers do not respond because they are having difficulty understanding the
English-only Notice. IRS goals include improving taxpayer service by providing products in
Spanish. To help meet this goal, the Notice could provide Spanish-language instructions and
thus facilitate refund receipts. The telephone number provided on the current Notice directs
taxpayers to Spanish-language help if they desire it. Including text in Spanish explaining the
taxpayer’s refund has been undeliverable and directing them to call the telephone number would
address this issue. Although we do not have enough information to determine how many
taxpayers are affected, providing Spanish-language information could speed resolution of
undelivered refunds for the Spanish-speaking segment of the population.

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should revise the
Undelivered Refund Check Notice to emphasize response by telephone and Internet and delete
the bottom part of the Notice requesting change of address information by mail. Some taxpayers
may not want to respond by telephone or Internet, so the IRS should provide a mailing address
and advise taxpayers to respond with their new address on the copy of the Notice. Because most
taxpayers do not reply via mail, no return envelope should be enclosed with the Notice. In
addition, the Notice should be revised to include sufficient information in Spanish to explain the
purpose of the Notice and to direct taxpayers to call a telephone number where they can receive
Spanish-language assistance.
       Management’s Response: The IRS partially agreed with this recommendation. The
       IRS agreed to update the Undelivered Refund Check Notice to publicize the different
       options available for taxpayers to update their address with the IRS and to advise
       taxpayers that toll-free Spanish assistance is available by adding the approved language,
       “Asistencia en espanol disponible” (Spanish assistance is available) after the toll-free
       telephone number. The IRS did not agree to eliminate the bottom portion of the Notice,
       or to eliminate sending the taxpayer a return envelope. The IRS does not believe it is
       good customer service or in the best interest of the IRS to eliminate the tear-off section of
       the Notice where the taxpayer lists information related to the address change or to
       eliminate sending the taxpayer a return envelope.



                                                                                             Page 7
                                 Processes to Resolve Undelivered
                            and Expired Refunds Are Generally Effective



       Office of Audit Comment: While we believe eliminating these items would provide
       faster, more efficient customer service with lower mailing costs, we accept the IRS’
       decision to continue to provide taxpayers with the return mail option.

Processing of Undelivered or Expired Refunds of Deceased
Taxpayers Could Be Improved
While the recent elimination of Notice research promoted efficiency and made sense for the
majority of cases, reimplementing research procedures for deceased taxpayer cases would
provide benefits to both the IRS and taxpayers’ estates. Currently, undelivered or expired
refunds for deceased taxpayers are treated the same as those for all other taxpayers. However,
the current systemic process has not been as effective in resolving deceased taxpayers’ cases as
in resolving other types of cases. Our review of older cases indicated there was a higher
proportion of deceased taxpayers’ accounts in the unresolved cases than in the resolved cases.
We estimate there were 5,289 Tax Year 2001 deceased taxpayer cases with significant balances
as of December 2004.
The most common resolution for cases that were not resolved promptly through taxpayer
telephone or mail contact is through a systemic process, primarily the filing of a subsequent tax
return. This systemic process will not resolve these cases if the estate of the deceased taxpayer
does not file a subsequent return. A higher proportion of deceased taxpayer cases were
unresolved because the IRS normally does not receive a subsequent return. Depending on the
situation, an estate executor may not be aware that a refund due from the IRS was undeliverable
or expired.
We reviewed the Tax Year 2001 unresolved sample cases for deceased taxpayers to determine if
we could find additional contact information to help locate a deceased taxpayer’s estate. We
reviewed final and estate returns, information return files, extension requests, copies of various
documents provided by the taxpayer’s estate or trustee, and other information available from IRS
electronic files.
The IRS files contained information sufficient to identify a potential estate contact in many of
these cases. We reviewed 43 cases for deceased taxpayers with undelivered or expired refunds
still owed to the estate as of December 2005. Twenty-six of these cases had supplemental
address information that could help locate the taxpayers’ estates. Because the information can
become outdated, it is important that the IRS conducts this research soon after the refunds are
returned undeliverable or after they expire without being cashed. This would help reduce the
number of unresolved cases and would improve customer service, which is a key IRS goal.




                                                                                           Page 8
                                 Processes to Resolve Undelivered
                            and Expired Refunds Are Generally Effective



Recommendation
Recommendation 2: The Commissioner, Wage and Investment Division, should ensure
deceased taxpayer accounts with significant credit balances are identified and reimplement
research procedures for these deceased taxpayer accounts. The identified accounts should be
researched as soon as possible after the refund check has been returned undeliverable and prior
to an expired refund being reissued.
       Management’s Response: The IRS agreed with this recommendation and will do
       further research on the accounts we identified as part of our sample of older unresolved
       cases, to determine if an authorized party with another address is located on the deceased
       taxpayer’s return. Based on the results of the review, the IRS will make procedural
       changes, if warranted.




                                                                                           Page 9
                                        Processes to Resolve Undelivered
                                   and Expired Refunds Are Generally Effective



                                                                                                      Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of the review was to determine whether the IRS is resolving undeliverable
and expired refund check conditions efficiently and effectively. We evaluated the current
resolution processes and reviewed samples of undeliverable and expired refund checks to
determine whether the processes might be improved. To accomplish our objective, we:
I.       Evaluated the current controls over the resolution of undeliverable and expired refund
         check cases.
         A. Held discussions with National Headquarters Accounts Management function
            analysts, managers, and other employees and with Fresno, California, Accounts
            Management Site employees to determine how undeliverable refund and expired
            refund check cases currently are handled.
         B. Reviewed relevant Internal Revenue Manual sections and analyzed the current
            procedures used by the Refund Inquiry and Accounts Maintenance functions to
            resolve undeliverable and expired refunds.
         C. Reviewed relevant Program Requirement Packages and Functional Specification
            Packages and analyzed the current programming logic related to systemic refund and
            notice issuance. This analysis was cursory, to determine whether there were any
            obvious logic problems related to programming.
         D. Determined the current status of the IRS agreement with the USPS for sharing of the
            National Change of Address file.1
II.      Determined whether the current process used by the IRS to resolve undeliverable refund
         cases could be improved to resolve them in a more efficient and customer-friendly
         manner.
         A. Selected a random sample of 396 Tax Year 2003 tax modules2 with a
            Transaction Code 740 posted as of December 2004 from a total population of
            207,750 undeliverable refunds. We selected a random sample so we could project the



1
  The National Change of Address file contains updated information from change of address forms filed with the
USPS. The USPS licenses this information to companies for commercial mail list processing or internal mail list
management. The purpose is to reduce undeliverable mail.
2
  A module is a collection of electronic data that is roughly equivalent to a tax return (e.g., an individual income tax
return for a certain year with account activity related to that return and year is one module).
                                                                                                               Page 10
                                      Processes to Resolve Undelivered
                                 and Expired Refunds Are Generally Effective



             results. We obtained our data from an Individual Master File3 extract prepared for the
             Treasury Inspector General for Tax Administration by the IRS and stored in our Data
             Center Warehouse. This sample selection reflects a 95 percent confidence level and a
             ± 5 percent precision and is appropriate for an occurrence rate of 50 percent. We
             validated the accuracy of the extracted Individual Master File sample case data while
             reviewing sample case information on the Integrated Data Retrieval System (IDRS).4
             There were no discrepancies between the sample data and the IDRS. We did not
             verify the completeness of the population from which the sample cases were selected
             because we did not have a basis for comparison; however, the population results are
             roughly consistent with notice data from the IRS from slightly different time periods.
        B. Analyzed the sample cases and determined whether the undeliverable refund
           conditions were resolved, how they were resolved, what function resolved them
           (i.e., Refund Inquiry or telephone units), and the time periods for resolution.
        C. Evaluated the results of the analysis in Step II.B. to determine whether there were
           ways to improve the efficiency of the process for trying to resolve undeliverable
           refunds.
        D. Reviewed the content of the notices issued when refund checks are returned as
           undeliverable or expired and determined whether the content was necessary and
           appropriate or whether improvements could be made.
        E. Attempted to determine the effect of any inefficiencies identified in the process and
           the cost savings of any improvements recommended by the audit team.
III.    Determined whether the current process used by the IRS to resolve aged undeliverable
        and expired refund check freeze cases was effective, either by locating the taxpayer and
        reissuing the refunds or by timely disposing of the credit so the account can be dropped
        from the Master File.5
        A. Based on the information obtained in Step I., determined whether the current process
           used to identify and research aged credit cases was working as intended and whether
           it was effective. We determined whether:
             1. The programming for generating transcripts for unresolved undelivered and
                expired refund freezes is in place and working as intended.



3
  The Individual Master File is the IRS database that maintains transactions or records of individual tax accounts.
4
  The IDRS is the IRS computer system capable of retrieving or updating stored information; it works in conjunction
with a taxpayer’s account records.
5
  The Master File is the IRS database that stores various types of taxpayer account information. The database
includes individual, business, and employee plans and exempt organizations data.
                                                                                                         Page 11
                         Processes to Resolve Undelivered
                    and Expired Refunds Are Generally Effective



   2. The Internal Revenue Manual instructions used to research these transcripts were
      adequate to identify addresses for the taxpayers.
   3. Any steps were taken to resolve aged expired refund credits.
B. Determined whether there was a more effective method of resolving aged credits.
   1. Selected a random sample of 400 Tax Year 2001 tax modules with a Transaction
      Code 740 posted as of December 2004. We selected those modules with a credit
      balance of $100 or more, but less than $25,000, as of December 2004. This
      population of 39,176 transactions included both undelivered and expired refund
      checks. This sample selection reflects a 95 percent confidence level and a
      ± 5 percent precision and is appropriate for an expected occurrence rate of
      50 percent. We selected a random sample so we could project results and cases
      with a credit balance of at least $100 to include only cases with a more significant
      balance for audit purposes. We validated the accuracy of the extracted Individual
      Master File sample case data while reviewing sample case information on the
      IDRS. There were no discrepancies between the sample data and the IDRS. We
      did not verify the completeness of the population from which the sample cases
      were selected because we did not have a basis for comparison; however, the
      population results are roughly consistent with notice data from the IRS from
      slightly different time periods.
   2. For the selected sample cases, performed IDRS research to determine whether it
      appeared the IRS had for these taxpayers reasonably current address information
      that could be used to contact them and resolve the frozen refunds.
   3. Using the sample results, determined whether more cases could be resolved and
      used this to support recommendations for improvement.
C. Identified deceased taxpayers with undelivered or expired refunds in the sample from
   Step III.B.1. and determined whether any special procedures could be implemented to
   more timely resolve the frozen refund condition.




                                                                                  Page 12
                               Processes to Resolve Undelivered
                          and Expired Refunds Are Generally Effective



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Richard J. Calderon, Audit Manager
Stephen D. Stephens, Lead Auditor
Kenneth L. Carlson, Jr., Senior Auditor
Carola A. Gaylord, Senior Auditor
Mary Jankowski, Senior Auditor
John Mansfield, Senior Auditor




                                                                                   Page 13
                               Processes to Resolve Undelivered
                          and Expired Refunds Are Generally Effective



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
   SE:S:CLD
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Chief, GAO/TIGTA/Legislative Implementation Branch SE:S:CLD:PSP:GTL
   Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                    Page 14
                                      Processes to Resolve Undelivered
                                 and Expired Refunds Are Generally Effective



                                                                                              Appendix IV

                                     Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 113,225 taxpayers over 5 years could receive reissued refunds
    more quickly by emphasizing response by telephone and Internet and deleting the bottom
    part of the Undelivered Refund Check Notice requesting change of address information by
    mail (see page 4).

Methodology Used to Measure the Reported Benefit:
To determine how long it took to resolve cases processed by different means, we identified a
population of 207,750 undelivered refunds in Tax Year 2003 by querying the Tax Year 2003
Individual Master File1 on the Treasury Inspector General for Tax Administration Data Center
Warehouse. From the population, we took a random sample of 396 cases. This sample selection
reflects a 95 percent confidence level and ± 5 percent precision and is appropriate for an
occurrence rate of 50 percent. For the sample cases, we identified transaction codes that caused
a refund reissuance by reviewing various IDRS2 command code output. We used IDRS audit
trail files from the Data Center Warehouse to identify the functional unit of the employee who
had initiated the refund reissuance (where applicable). Based on the transaction code and related
data, as well as the functional unit of the initiating employee, we categorized the resolutions as
due to the telephone, subsequent tax return filing, USPS address change, not determined, and
unresolved (i.e., no reissued refund).
To determine how many taxpayers could be affected, we used Tax Year 2003 results for the
mail, 10.9 percent (which was rounded to 11 percent in Figure 2), and applied that to the
population of 207,750 undelivered refunds for an annual total of 22,645 taxpayers affected.
Some taxpayers could be counted more than once due to multiple undelivered refunds. Using the
results from our review we estimated that over 5 years the benefit could extend to
113,225 taxpayers (22,645 taxpayers per year times 5 years).


1
 The Individual Master File is the IRS database that maintains transactions or records of individual tax accounts.
2
 The IDRS is the IRS computer system capable of retrieving or updating stored information; it works in conjunction
with a taxpayer’s account records.
                                                                                                        Page 15
                     Processes to Resolve Undelivered
                and Expired Refunds Are Generally Effective



                                                                             Appendix V

Undelivered and Expired Refunds Process




  Source: Treasury Inspector General for Tax Administration analysis of IRS processes.

                                                                                         Page 16
                  Processes to Resolve Undelivered
             and Expired Refunds Are Generally Effective



                                                     Appendix VI

 Undelivered Refund Check Notice




Source: IRS publication Intranet web site.




                                                           Page 17
               Processes to Resolve Undelivered
          and Expired Refunds Are Generally Effective



                                                 Appendix VII

Management’s Response to the Draft Report




                                                        Page 18
     Processes to Resolve Undelivered
and Expired Refunds Are Generally Effective




                                              Page 19
     Processes to Resolve Undelivered
and Expired Refunds Are Generally Effective




                                              Page 20
     Processes to Resolve Undelivered
and Expired Refunds Are Generally Effective




                                              Page 21
